          U.S. Department of the Interior
              Office of Inspector General



                            MAINTAINING THE
      DEPARTMENT OF THE INTERIOR ’S FACILITIES,
                   A FRAMEWORK FOR ACTION




No. 2002-I-0008                DECEMBER 2001
                                                                           C-IN-BLM-0039-2001-D
                       United States Department of the Interior

                                        Office of Inspector General
                                              Washington, D.C. 20240




                                                                                 December 12, 2001

Memorandum

To:      Secretary

From:    Earl E. Devaney
         Inspector General

Subject: Advisory Report on Maintaining the Department of the Interior’s Facilities,
         A Framework for Action (No. 2002-I-0008)

          I am pleased to provide you with our insights on the Department’s facilities maintenance
management issues. We evaluated the Department’s current facilities maintenance practices and
plans and identified promising practices recommended by the Department, its bureaus, other
governmental agencies, non-profit entities and for-profit entities. I believe our results will
provide you with a sound framework for correcting long-standing Departmental facilities
maintenance problems and for ensuring a business-like approach for future operations. The
breadth and depth of the facilities maintenance issues we observed led us to conclude that direct
Departmental intervention and management of a maintenance program is needed for significant and
lasting improvements.

        In our report, we identify actions that, if implemented, will result in an effective
Departmental facilities maintenance program. These actions include:

           Ø   Appointing a Departmental Chief Maintenance Officer
           Ø   Taking Immediate Steps to Reduce the Maintenance Backlog
           Ø   Managing Facilities Proactively
           Ø   Establishing a Single Maintenance Budget for the Entire Department
           Ø   Conducting Standardized Condition Assessments
           Ø   Establishing Relevant Performance Measures
           Ø   Implementing an Integrated Facilities Management System

         Some of our proposed actions may seem bold; however, we believe they represent the
Department’s best opportunity to substantially improve its facilities maintenance program.
Although this advisory report does not require a response, we would appreciate being kept
apprised of the actions the Department takes on our proposals.

         If you have any questions about our work or report, please do not hesitate to call me at
(202) 208-5745.
                 Maintaining the
            Department of the Interior’s
                    Facilities
                    A Framework for Action


The Maintenance Challenge
The Department of the Interior today faces an increasingly critical challenge: how to
maintain the large and aging inventory of bridges, dams, schools, buildings, irrigation
systems, roads, historic buildings and other structures entrusted to its care. This
challenge is exacerbated by the current condition of many of those facilities. The
Department estimated a deferred maintenance backlog of between $7 billion and
$11 billion (as of September 30, 2000). Reviews conducted by our office, the General
Accounting Office, and the bureaus have consistently revealed long-standing
maintenance problems and the Department itself has identified the lack of a Department-
wide maintenance management capability as a mission-critical material weakness. The
present decentralized maintenance operations with their complex funding mechanisms
and little or no standardized information, processes, or procedures are not effective.

At the request of the Department and the Office of Management and Budget (OMB), we
reviewed the Departmental issues and identified key needed actions. Rather than a
typical audit report, we have designed this report to highlight the critical actions needed
to enable the Department to act quickly to reduce the backlog and develop a
comprehensive, proactive and reliable facilities maintenance management program. Our
suggestions provide the Department with a framework for short-term actions to address
the deferred maintenance backlog and long-term actions to establish an effective facilities
management process that will help prevent recurrence of a deferred maintenance backlog.

Building on the Department’s Efforts
The Department has already begun the work of upgrading its facilities maintenance
processes and systems. The February 1998 report, Facilities Maintenance Assessment
and Recommendations, issued by the Interior Planning, Design and Construction Council
emphasized proactive maintenance management, including the need for a best practices
study and for a common vocabulary of key maintenance terms. The report recommended
the Council be expanded and have oversight responsibilities for the implementation of the
other recommendations. The Department followed the 1998 report with its 1999
Facilities Condition Assessment Survey Guidelines, which set minimum standards and
methods for accomplishing comprehensive condition assessments. The two documents
together created a powerful outline for positive changes in the Department’s facilities
management program. The Department and its bureaus have started to implement the
1998 recommendations, but its decentralized structure has not allowed the Department to
fully capitalize on these efforts. Further, the individual bureaus are approaching the
facilities management process from different viewpoints and the Interior Planning,
Design and Construction Council does not have the organizational authority or visibility
to compel a cohesive approach.

In developing our framework, we relied in part on the recommendations in the 1998
report; in fact many of our recommendations echo the report’s conclusions and
recommendations. Based on our review of the maintenance process within four bureaus,
our past reports and experience and promising practices identified by the General
Accounting Office and others, we augmented the recommendations with additional
suggestions and emphasis. Our recommendations, to increase Departmental oversight of
the facilities maintenance process, to strengthen the proactive stance of maintenance
operations, and to ensure that maintenance and deferred maintenance are addressed
contemporaneously, will help the Department achieve the intent of the 1998 report’s
recommendations.

We believe our framework builds on and consolidates the proactive changes already
underway within the Departmental bureaus we reviewed—the National Park Service, the
Bureau of Indian Affairs, the Bureau of Land Management and the Fish and Wildlife
Service. The bureaus are beginning the essential and critical tasks of assessing the
conditions of their facilities, identifying the extent of deferred maintenance needs, and
implementing the information systems necessary to effectively manage and maintain
facilities. For example, the Bureau of Indian Affairs has completed its initial round of
condition assessments and has implemented a facilities management information system
for its education and administrative facilities. The National Park Service is
implementing, and the Bureau of Land Management and the Fish and Wildlife Service
are planning to test, a new facilities management system, MAXIMO. This system has the
capability to provide accurate facilities maintenance information and foster a good
decision-making process. Although these bureaus are taking some proactive steps to
address their maintenance issues, much more aggressive action is needed to resolve the
problem for the entire Department.

Needed Actions
The following actions provide a broad framework to address the Department’s facilities
maintenance problems on the two levels necessary to ensure effective change. First, the
Department must act immediately to reduce the deferred maintenance backlog, which is
now a maintenance crisis. Second, the Department must simultaneously develop and
implement a proactive Departmental facilities maintenance program that ensures the
wisest use of maintenance monies, guarantees effective maintenance and prevents the
recurrence of future backlogs. We developed this framework based on our review of


                                           2
promising practices recommended by others, the work we performed at the bureaus and
our own experience. The framework is centered around increased Departmental
oversight and control to ensure a cohesive approach to move the Department toward
sound, business-like facilities maintenance management.

 Appoint a                 Currently, none of the Departmental bureaus we reviewed,
 Departmental              each with its own budget and each concerned with its own
                           turf, has been able to establish an effective facilities
 Chief Maintenance
                           maintenance program. The bureaus’ efforts to implement
 Officer                   facilities management systems and accurately identify the
                           deferred maintenance backlog have been slow and
                           uncoordinated. Additionally, and most importantly, none of
                           the bureaus can provide assurance that the millions of
                           dollars appropriated for maintenance have been or will be
                           spent wisely. A Department-wide approach to maintenance
                           is now necessary to address the maintenance crisis and
                           ensure cohesive action among the bureaus. The appointment
                           of a Chief Maintenance Officer (CMO) reporting directly to
                           the Secretary would bring maintenance problems and issues
                           under a single authority and with a single focus. Primary
                           among the responsibilities of this individual would be to:

                                  Develop, implement, and enforce a comprehensive
                                  and proactive facilities management plan. Such a
                                  plan would mandate cohesive bureau facilities
                                  management systems, condition assessments,
                                  accountability of bureau maintenance managers and
                                  accurate reporting to the Secretary, to OMB and to
                                  Congress.

                                  Conduct a benchmarking/best practices study of
                                  private sector solutions to maintenance challenges
                                  similar to those faced by DOI.

                                  Oversee all annual maintenance budget submissions,
                                  review maintenance and construction expenditures to
                                  ensure reduction of the deferred maintenance
                                  backlog and limit new construction to only mission-
                                  essential facilities.

                                  Explore the viability of establishing a single,
                                  Departmental appropriation for maintenance.

                                  Bureaus should appoint a single, designated
                                  point-of-contact to report to the CMO.



                                          3
Take Immediate    No facilities management plan can succeed without reducing
Steps to Reduce   the deferred maintenance backlog as quickly as possible. To
                  be effective, however, such a reduction must be done within
Backlog
                  the context of a well-planned approach that ensures the
                  wisest use of maintenance funds. Following are actions the
                  Department could take in the short term to begin reducing
                  the backlog while at the same time developing an effective
                  facilities maintenance process.

                         Maximize funding of the projects in the
                         Department’s five-year plan so that deteriorated
                         assets can be repaired, rehabilitated, or replaced
                         expeditiously. Backlog reduction can be maximized
                         by:

                               Identifying available funding and the minimal
                               acceptable condition of facilities.

                               Making sure that the projects in the plan are
                               legitimately part of the maintenance backlog,
                               have high priority health and safety needs, and
                               are not new construction.

                         Use contractors to implement a facilities
                         management system and to expedite completion of
                         condition assessments in order to quantify the
                         backlog.

                         Develop a strategic plan of key actions, time frames
                         and estimated costs to reduce the backlog. This plan
                         should ensure that new construction is limited, that
                         facilities are designed for local maintenance and that
                         incentives are in place to reduce underused space and
                         to dispose of unnecessary assets. The plan should
                         also eliminate the current incentives for retaining
                         underused space.

                         Ensure that progress toward reducing the backlog is
                         accurately measured and reported.




                                 4
Manage Facilities    Departmental managers should operate facilities
Proactively          maintenance as a proactive process that emphasizes the role
                     of preventive maintenance, thereby identifying and meeting
                     maintenance needs before they become a crisis. Such a
                     process maximizes the useful lives of assets and minimizes
                     the cost of irreversible loss of service life by ensuring that
                     preventative and/or cyclic maintenance is performed when
                     scheduled or needed. To begin managing proactively, the
                     Department should, at a minimum:

                            Develop comprehensive preventative maintenance
                            policies and procedures.

                            Ensure that maintenance employees are qualified and
                            trained to complete their tasks.

                            Develop credible preventative maintenance
                            schedules and cost estimates for all facilities to
                            ensure reliable maintenance budgets.

                            Earmark funding for preventative and/or cyclic
                            maintenance work.

                            Develop a strategic plan that identifies prioritized
                            alternative actions if there is insufficient funding for
                            maintenance, including identifying facilities that
                            could be disposed of or closed.



Explore the          To persuade the OMB and Congress to provide the money
Establishment of a   to manage and maintain Departmental national facilities, the
                     Department must identify not only how much money it
Single Maintenance
                     needs, but also the wisest ways to spend it. A single
Budget               maintenance budget funded through a single appropriation
                     for the Department would significantly advance these
                     objectives.

                     In the immediate term, however, the Department must
                     seize greater control over maintenance funds to ensure
                     appropriate and efficient expenditures of maintenance
                     monies. To do so, the Department should:

                            Establish single line item budgets for maintenance in
                            each bureau.




                                      5
                               Grant oversight authority to the Chief Maintenance
                               Officer for all Departmental maintenance budgets.
                               The CMO should, in concert with the DAS-Budget
                               and Finance, review and certify the budget requests
                               and transactions of the maintenance line items each
                               year. While the CMO will have oversight in this
                               arena, the onus of thoughtful budget formulation and
                               accurate cost accounting will remain with the
                               bureaus.

                        In the long term, the Department should explore the
                        viability of establishing a single Departmental appropriation
                        for maintenance, to include:

                               Seeking no-year funding to build reserves from
                               appropriated funds.

                               Including funds from other sources, such as
                               collections and fees, in the maintenance reserve.

                               Linking budget requests to maintenance needs at
                               bureau levels and separately identify funding needs
                               for preventative and/or cyclic maintenance and
                               deferred maintenance backlog reduction.

                               Identifying and reporting to the OMB and Congress
                               the estimated total resources needed to implement
                               and operate a facilities management system and
                               perform condition assessments.



Conduct Condition Condition assessments are a continuous process through
Assessments       which bureaus evaluate the condition of their facilities and,
                        as such, are a key component of an effective facilities
                        management program. Condition assessments establish a
                        maintenance deficiency baseline and are essential in
                        evaluating maintenance performance and in planning and
                        budgeting maintenance activities. As part of an effective
                        condition assessment process, the Department should:

                               Build on its December 2, 1999 Facilities Condition
                               Assessment Survey Guidelines by developing
                               standardized, Department-wide procedures for:

                                     Performing condition assessments.



                                        6
                           Estimating maintenance costs using
                           standardized cost methodologies.
                           Complying with Federal, state and local
                           building code requirements.
                           Validating inventory for replacement cost
                           and changes in size, use and ownership.
                           Categorizing and ranking the seriousness
                           of individual deficiencies.
                           Identifying minimum qualifications for
                           personnel conducting condition assessments.
                           Establishing time frames for completing
                           condition assessments.
                           Documenting the results of assessments.

                     Obtain from the bureaus formalized plans that
                     include key actions, time frames and estimated costs
                     to implement the revised procedures.



Establish     Both the OMB and Congress have been vitally concerned
Performance   with the Department’s ability to accurately measure and
              report maintenance performance. To implement an effective
Measures
              facilities management program, it is imperative to establish
              goals and objectives that measure the degree to which the
              Department is:

                     Reducing the deferred maintenance backlog,
                     particularly critical deficiencies.

                     Completing condition assessments.

                     Implementing and operating a facilities
                     management system.

                     Reducing unplanned closures of deteriorated
                     facilities.

                     Linking costs to planned and actual maintenance
                     accomplishments.




                              7
 Implement a              An effective facilities management system is the cornerstone
 Facilities               for proactive maintenance within the Department. The
                          Department must implement a single facilities management
 Management
                          system that incorporates maintenance standards and
 System                   consistent information. To effectively plan, prioritize, direct
                          and execute maintenance activities; measure and report on
                          maintenance performance; and control and account for
                          maintenance funding, the Department should:

                                 Develop a plan that includes key actions, time
                                 frames, and estimated costs to fully implement and
                                 operate a single facilities management system that
                                 generates data that can be integrated daily at the
                                 Departmental level and provide an inventory of
                                 assets and conditions including:

                                       A facility condition index.
                                       Replacement costs.
                                       Priority ranking categories.
                                       Standardized deficiency costs.
                                       Preventative maintenance schedules
                                       and related costs.

                                 Establish policies and procedures to ensure
                                 consistent system use by trained staff at all bureaus.




Conclusion
We believe the framework of actions outlined above will bring renewed focus to the
Department’s efforts to implement an effective facilities maintenance process. The
actions, which are designed to increase Departmental oversight and proactive
management of the maintenance process, should compliment the on-going efforts by the
individual bureaus and reinvigorate the Departmental efforts from the 1998 report,
Facilities Maintenance Assessment and Recommendations. Taken all together, these
efforts should help the Department eliminate its current deferred maintenance backlog
while establishing an effective, business-like process for future operations.




                                           8
Mission
The mission of the Office of Inspector General (OIG) is to
promote excellence in the programs, operations, and
management of the Department of the Interior (DOI). We
accomplish our mission in part by objectively and independently
assessing major issues and risks that directly impact, or could
impact, the DOI=s ability to carry out its programs and
operations and by timely advising the Secretary, bureau
officials, and the Congress of actions that should be taken to
correct any problems or deficiencies. In that respect, the value
of our services is linked to identifying and focusing on the most
important issues facing DOI.


How to Report Fraud, Waste, and Abuse
Fraud, waste, and abuse in Government are the concern of
everyone B Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related
to Departmental or insular area programs and operations. You
can report allegations to us by:

Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 5341-MIB
              1849 C Street, NW
              Washington, DC 20240

Phone:        24-Hour Toll Free             800-424-5081

              Washington Metro Area         202-208-5300
              Hearing Impaired              202-208-2420
              Fax                           202-208-6023

              Caribbean Region              703-487-8058
              Northern Pacific Region       671-647-6060

Internet:     www.oig.doi.gov/hotline_form.html
